Ti

OCKLE

2311 Douglas Street CA E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B pteds contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
Nos. 19-1231, 19-1241

FEDERAL COMMUNICATIONS COMMISSION, et al.,
Petitioners,
v.
PROMETHEUS RADIO PROJECT, et al.,
Respondents.

NATIONAL ASSOCIATION OF BROADCASTERS, et al.,
Petitioners,
v.
PROMETHEUS RADIO PROJECT, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE %
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF AMICUS CURIAE
ON BEHALF OF MEDIA LAW AND POLICY SCHOLARS IN SUPPORT OF RESPONDENTS
in the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 7483 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 23rd day of December, 2020.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

\ GENERAL fcc, | State of Nebraska jj / & Chk
RENEE J. GOSS :

fcc, | Exp. September 5, 202

 

 

Notary Public Affiant
40417
